No. 19-

So

3fn t!Tf)e
Supreme Court of tfje {Hmtefci i£>tate£
-------<F;:--------------------------JOHN DERAFFELE,
Petitioner,
-against-

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the First Circuit

PETITION FOR A WRIT OF CERTIORARI

John Deraffele
Pro Se
305 North Avenue
New Rochelle, New York 10801
(914) 420-3962
jderaffele@aol.com

DICK BAILEY SERVICE, Inc. • 1-800-531-2028
[REPRODUCED ON RECYCLED PAPER]

•

dickbailey.com

1

QUESTION PRESENTED
Does a Pro Se litigant under Supreme Court Rule
10 have the right to request a Writ of Certiorari
when the United States Court of Appeals has upheld
a lower Court ruling on an important Federal
question in a way that conflicts or has so far
departed from the accepted and usual course of
Judicial proceedings, or sanctioned such a departure
by a lower Court as to call for an exercise of this
Court’s Supervisory Power; when a jury verdict and
Judgment was ordered against me by a lower Court
knowing the Plaintiffs case was based on the
erroneous use of the Fair Housing Act since the
Complainants were not bonfide tenants which is a
requirement in order to use the Fair Housing Act in
discrimination cases. My complainants who are not
bonfide tenants as defined in the Fair Housing Act,
nevertheless received and obtained relief under this
act.
The Federal District Court should have
dismissed the case because the complainants lacked
standings under the act and a jury errored in
awarding compensation to the complainants. The
Plaintiff and the lower courts awards should have
been reversed since the jury found the complainants
not to be bonfide tenants under the Fair Housing Act
and did so in replying to question 1 of the jury
verdict form as to that fact. The presiding Judge
errored in refusing my request to reverse the
compensation and legal fees to the Plaintiff and the
complainants.

1

f

J

11

The Federal District Court’s Order should have
been reversed by the US Court of Appeals because
the proceedings against me should never have been
commenced.
ANSWER: Affirmative

Ill

PARTIES TO THE PROCEEDING
The parties involved are listed on the cover page
of the Writ of Certiorari.
CORPORATE DISCLOSURE STATEMENT
No corporations are involved in this case.

}

;

\

IV

TABLE OF CONTENTS
Page
QUESTION PRESENTED.....................................

i

PARTIES TO THE PROCEEDING.......................

in

CORPORATE DISCLOSURE STATEMENT......

in

TABLE OF CONTENTS.........................................

IV

TABLE OF AUTHORITIES...................................

V

APPENDIX INDEX..................................................

VI

OPINIONS BELOW.................................................

1

CONCISE STATEMENT OF BASIS OF
JURISDICTION ON WRIT OF CERTIRORARI.... 1
CONCISE STATEMENT OF FACTS....................

2

CONCISE STATEMENT PRIOR TO THE
QUESTION PRESENTED..................................... 6
REASONS FOR GRANTING THE WRIT FOR
CERTIORARI............................................................ 10
SUMMARY................................................................ 22
CONCLUSION......................................................... 23

V

TABLE OF AUTHORITIES
Cases

Page

Core v. Bill,
(US 2009)..........................................

12

Giles v. Maryland,
(US 1967)..........................................

16, 19

Kyles v. Whitney,
(US 1995)..........................................

12

Spicer v. Roxbury,
4th Circuit 1999................................

17, 18

US v. Bagley,
(US 1985)...........................................

12

Statutes
14th Amendment to the Constitution

7, 11, 23

18U.S.C. § 1621..................................

21

19U.S.C. § 1622....... ..........................

19

Rules
Rule 10.................................................

i, 1

Act
Fair Housing Act

.passim.

VI

APPENDIX INDEX
Page
Order of Court of the United States Court of
Appeals
for the First Circuit,
dated
March 7, 2019
la-2a
Judgment in a Civil Case of the United States
District
Court
for
the
District
of
Massachusetts, dated October 30, 2017...............

3a

Judgment of the United States Court of
Appeals
for the
First Circuit,
dated
4a-5a
January 18, 2019
Special JuryVerdict Form of the United
States District Court for the District of
6a-lla
Massachusetts, dated October 27, 2017

1
OPINIONS BELOW
On March 7, 2019, the U.S. Court of Appeals for
the First Circuit denied the Petition for Rehearing
en banc. See App. la-2a.
On January 18, 2019, the U.S. Court of Appeals
for the First Circuit affirmed the district court
judgment. See App. 4a-5a.
On October 30, 2017, the United States District
Court, District of Massachusetts entire judgment for
the Plaintiff in accordance with the jury verdict.
See App. 3a.
On October 27, 2017 in the United States District
Court, District of Massachusetts, the jury signed the
Jury Verdict form. See App. 6a-11a.
CONCISE STATEMENT OF BASIS OF
JURISDICTION ON WRIT OF CERTIORARI
Rule 10: Considerations governing review on
Certiorari
a)

A United States Court of Appeals has entered
a decision in conflict or has decided an
important Federal question in a way that
conflicts with a decision by a State Court of
last resort; or has so far departed from the
accepted and usual course of Judicial
proceedings, or sanctioned such a departure
by a lower Court, as to call for an exercise of
this Court’s supervisory powers.

The Fair Housing Act was used by the
complainants to obtain relief from the plaintiff when
in fact the complaint should have never been filed by

2
the respondent since the complainants were not
“Bon Fide Tenants” due to insufficient income and
lacked standings to use the Fair Housing Act in
seeking discrimination protection.
The first prerequisite of the Fair Housing Act is
that the complainants be “Bon Fide Tenants” and
the respondent knew that the Complainants had
insufficient income to qualify yet the respondents
filed their complaint, amended complaint and
proceeded to trial with this knowledge in hand.
The jury verified the Plaintiffs contention in
question number one of the jury verdict form stating
the complainants were not Bon Fide tenants yet
proceeded to grant relief to the complainants and the
respondent.
CONCISE STATEMENT OF FACTS
1)

On or about April 22, 2015, I received the first
call by an unidentified individual who stated
he wanted to rent my apartment for $750 a
month plus utilities but stated his income was
less than $1,000 a month, I denied the caller
the apartment, based on lack of sufficient
income.

2)

On or about July 8th, the unidentified
individual called a second time and I was able
to speak to him, he told me that he just got a
second job and I told him that based on his
previous income that he did not qualify as well
as the length of employment on his second job.

3)

On or about July 13, 2015, I was served with
the first complaint of discrimination based on
familial status by the MCAD.

3
4)

On or about July 15, 2015, I replied to the
complaint and also sent out a Notice to Cure
to my tenant, Ana Collazo, the legal tenant at
27 Loring Street, Apartment 1R, the mother of
the complainant for allowing the complainants
to move into the apartment without my
permission.

5)

On or about July 23, 2015, I received a second
complaint for retaliation from the MCAD and
I sent in my reply regarding the second
complaint.

6)

On or about August 10, 2015, I received a call
from an individual from the MCAD stating he
was a conciliator and demanded $15,000 from
me to end the case.
On or about August 15, 2015, in order to seek
protection as an out of state owner, I filed in
the Federal District of Massachusetts a
complaint against MCAD and the two
complainants, Esteban and Aileen Hernandez.
NOTE: The complaint I filed against the
MCAD and the complainants later resulted in
the Plaintiff filing an amended complaint
against me stating that I used this Federal
complaint as retaliation against the two
complainants.

7)

8)

On or about September 1, 2015, MCAD
transferred the two complaints to HUD.

9)

On or about September 15, 2015, I met with
the HUD investigator, Mark Butler and his
attorney in Springfield and I brought all my
files for them to review.

4
10)

On or about March 15, 2016, Mark Butler
completed his final report.

ID

On or about March 20, 2016, Daniel Weaver,
Mark Butler’s boss called and said he was a
conciliator and demanded $30,000 to resolve
the case in which I responded “no”.

12)

On or about April 1, 2016, Daniel Weaver
recommended to the US Attorney’s Office that
I be prosecuted for discrimination under the
Fair Housing Act.

13)

On or about April 15, 2016, I was served with
a Federal complaint for violating the Fair
Housing Act by the Respondent.

14)

On or about July 25, 2016, Judge Stearn, the
presiding Judge dismissed the retaliation
complaint against me.

15)

On or about September, 2016, I filed for
summary judgment against the Respondent.

16)

On or about October 12, 2016, Judge Stearns
ordered the Respondent to prove that the
complainants were bonfide tenants.

17)

On or about October 30, 2016, US Attorney’s
Office supplied its second opposition reply
with a declaration and three affidavits stating
that the complainant’s income was $2,600 a
month, when in fact it was less than $1,000 a
month based on actual paystubs for that
period.

18)

On or about December 1, 2016, depositions
began for Esteban Hernandez, Aileen
Hernandez, Ana Collazo, Mark Butler, Daniel
Weaver and others.

5
19)

On or about June, 2017, amended complaint
was filed by the US Attorney’s Office against
me.

20)

On or about September 23, 2017 the trial
began.

21)

On or about September 27, 2017 the jury
verdict was announced.

22)

On or about October 30, 2017, a judgment was
granted by the Federal District Court.

23)

On or about November 4, 2017 a Notice of
Appeal was submitted.

24)

On or about January 18, 2019 a decision of
U.S. Court of Appeals upheld the lower court’s
decision.

25)

On or about March 7, 2019, a petition for
rehearing was denied.

6
CONCISE STATEMENT PRIOR TO THE
QUESTION PRESENTED
In order to use the Fair Housing Act as a
protection against discrimination, the Complainants
must be first qualified as bonfide tenants. Esteban
Hernandez and Aileen Hernandez were not bonfide
tenants when their income of less than $1,000
equated to approximately 100% of the rent and
utility costs for an apartment they wished to rent at
27 Loring Street, Apartment 2L, Springfield,
Massachusetts. It took the plaintiff 2 years and a
scheduled trial before the Plaintiffs investigator
would admit this fact under oath and on the record
“that the complainants were not bonfide tenants
under the Fair Housing Act” and therefore,
nullifying their frivolous complaint against me. This
was later affirmed by the jury in answering
question 1 on the jury verdict form (Pet. App. la-6a).
In addition, the Fair Housing Act was not created
to violate the Constitutional rights of others. In this
case, it would be me because I had every right to
deny the complainants the apartment based on their
stated and insufficient income of less than $1,000 a
month for an apartment which would cost them
approximately 1000 a month.
The basis for Jurisdiction of my Writ of Certiorari
is the United States Court of Appeals decision not to
reverse the lower Court’s Judgment has so far
departed from the accepted and usual course of
Judicial proceedings or sanctioned such a departure
by a lower Court as to call for the exercise of this
Court’s supervisory power. The lower Court errored
in regards to a conspiracy of various State and

7
Federal Agencies to cover up the fact that two
complaints were filed against me without first
qualifying the complainants as bonfide tenants
under the Fair Housing Act in order for them to use
the protection afforded by the Fair Housing Act in
discrimination cases.
The case before you, United States of America v.
John DeRaffele, should never have been, except for
the fact that various individuals using their
governmental powers, were able to form a conspiracy
to cover up their inadequacies of the case in order to
win a discrimination case at the expense of violating
my 14th Amendment rights of due process and a fair
trial, by willfully deceiving the Court and by using
perjurious documents and perjurious testimony in
the process and finally by suborning witnesses to lie
under oath. These accusations are substantiated by
the Court record and prior submissions to the trial.
A brief preview of the cast of characters involved.
This case started when Esteban Hernandez and
Aileen Hernandez, the complainants were turned
down by me for insufficient income, on or about July
8, 2015. Esteban Hernandez and Aileen Hernanedez
then went to the Massachusetts Commission Against
Discrimination (hereinafter “MCAD”) and a summer
intern prepared two complaints against me. First
complaint was for discrimination of familial status
and the second complaint was for retaliation. After
the complaints were filed, Beth Tedeschi, MCAD
Investigator, who stated at the trial that “she was
away at a seminar and then on vacation and never
qualified the complainants as being bonfide under
the Fair Housing Act” and which is a requirement to

8
use the Fair Housing Act in discrimination cases.
Thereafter, an unnamed MCAD employee, under the
guise as being a conciliator demanding $15,000 from
me in order to settle the case. The MCAD had no
legal right to issue two complaints under the Fair
Housing Act until they qualified those complainants
as bonfide tenants nor demand monies without a
proper conciliation hearing of which neither of these
requirements were performed by MCAD.
I sought protection in Federal District Court
naming the MCAD and the two complainants,
Esteban Hernandez and Aileen Hernandez on or
about August 15, 2015. Once my Federal complaint
was filed, the MCAD transferred their two
complaints to HUD and it was put in the hands of
their investigator, Mark Butler on or about
September 10, 2015. Mark Butler then provided a
final report after his so-called investigation on or
about March 15, 2016 and suggested to his boss,
Daniel Weaver, that I be prosecuted. It should be
noted that Mark Butler stated three important facts
during the trial, a) he knew I was guilty from day
one showing his bias, b) it wasn’t about the income
but for the fact that I didn’t want to de-lead the
apartment, when in fact the apartment had already
been de-leaded, showing his inability to investigate
properly and c) most importantly the fact that he
stated under cross-examination and after I made
him read the paystubs out loud to the Court that the
tenants were not bonfide tenants under the Fair
Housing Act. When Mark Butler recommended, I be
prosecuted for the two complaints, his boss, Daniel
Weaver based his recommendation on bias and not
facts. Daniel Weaver acting as a conciliator then

9
demanded $30,000 from me based on Mark
bias recommendation to resolve the case.
said no, the case was then transferred to
Attorney’s Office and put into the hands of
Dorchek for prosecution.

Butler’s
When I
the US
Gregory

Gregory Dorchek did not at any time, check to see
if the complainants were bonfide tenants although
he had proof that they were not based on the
complainant’s own admission at the depositions and
at trial and Esteban Hernandez’s paystubs. Later he
sat through the depositions and heard the lies of
Esteban and Aileen Hernandez, Mark Butler and
Daniel Weaver uncovered in my cross and recanted
by his own witnesses yet he continued to prosecute
the case which I am assuming was based on the
demands of his boss’ beliefs as a Pro Se that I would
cave in to their demands. Later Jennifer Serafin
became his co-council and both suborned their
witnesses during the trial to perjure themselves
knowing that what they said was proven to be
incorrect and false at the depositions. At trial, when
Mark Butler stated that the complainants were not
bonfide, the jury and the Judge heard this statement
yet at the end of the trial when I asked the case be
dismissed, the Judge refused and after the jury
Verdict came in the jury had stated that they were
not bonfide tenants yet they continued to proceed
and award $8,500 to the complainants and also
$35,000 in legal fees to the plaintiff knowing that
they prosecuted a frivolous
case where the
complainants were not bonfide and not able to use
the Fair Housing Act for their protection. This is
why I have come to the United States Supreme
Court to seek your help because I believe that the

10
lower Court departed from the accepted and usual
course of Judicial proceedings and affirmed by the
Court of Appeals, I am requesting that the Court of
Appeals Decision be reversed and that this case be
sent back for a new trial in the US District Court,
1st Circuit.
REASONS FOR GRANTING THE
WRIT OF CERTIORARI
The Federal District Court of Massachusetts
misinterpreted the requirements of the Fair Housing
Act which resulted in a judgement against the
Plaintiff in favor of the Respondent and the
Complainants in this case.
The Fair Housing Act specifically states that the
Complainants must be Bon Fide in order to use the
Fair Housing Act in discrimination cases.
The Complainants with an income of less than
$1,000.00 a month were not Bone Fide tenants to
rent the Plaintiffs apartment and the Respondents
knew this prior to filing their complaint, amended
complaint and then proceeding to trial.
The jury, on the jury verdict form, stated
that Complainants were not Bon Fide tenants
yet continued to grant relief to the respondents
and the Complainants when in fact, they
should have not gone any further once
they determined the Complainants were not Bon
Fide tenants under the Fair Housing Act.
A judgment was granted by the Federal District
Court and affirmed by the U.S. court of Appeals for a
frivolous complaint that did not meet the
requirements of the Fair Housing Act.

11
The United States Supreme Court has the power
to reverse this erroneously judgement and prevent
future abuse of the use of the Fair Housing Act
regarding complainants who are not Bon Fide under
the Act.
In this specific case, the respondents over stepped
their boundaries and misinterpret the requirement
of the Fair Housing Act causing the Plaintiff
monetary harm by the misuse of this Act and by
correcting this use it will prevent other from being
harmed in the future.
When, the Justice
Department does not prequalify a tenant prior to
filing a complaint.
A Writ of Certiorari will be the first step in
righting a wrong caused by the misuse of the Fair
Housing Act.
In the past the US Attorney’s Office has been
looked upon as the protector of the rights of citizens
of this Country. In recent years their image has
been tarnished and in my specific case has shown
the US Attorney’s Office in Boston to be guilty of
prosecutorial misconduct and as co-conspirator
which resulted in the process of robbing me of my
due process rights under the 14th Amendment of the
Constitution. The prosecutors in this case knew
from the beginning based on the paystubs of the
complainants on the date of the last call on or about
July 8, 2015, that they did not qualify as bonfide
tenants because of insufficient income to use the
Fair Housing Act in their case of discrimination
against me.
The paystubs on the week of the last call ending
on July 8, 2015, show the income of the complainant

12
to be approximately $257 and the three prior weeks
of $211 each with a total monthly income of less than
$1,000.00 for that month. This was provided during
the trial and submitted into evidence.
See Kyles v. Whitney (US 1995) - accused entitled to
a new trial because the prosecutor failed to comply
with due process obligations to disclose material
facts and evidence favorable to the accused
concerning his possible innocence of the crime).
See US v. Bagley (US 1985) — prosecutors’ duty to
disclose material favorable evidence that exist
regardless whether the Defendant makes a specific
request.
See Core v. Bill (US 2009) — prosecutors’ pretrial
obligation to disclose favorable and impeachment
evidence under prosecutors ethical and statutory
obligations.
On or about April, 2016 I was charged by the
Plaintiff under the Fair Housing Act with
discrimination based on familial status and a
retaliation complaint. The MCAD was specifically
created to protect the rights of bonfide tenants, a
requirement of the Fair Housing Act yet these two
complainants were never bonfide based on
insufficient income and without being prequalified
by the MCAD. The MCAD after sending the two
complaints and receiving my two reply’s, tried to
extort $15,000 from me in order to resolve the case.
After what I believed to be an extortion attempt, I
sought protection in the Federal District Court of
Massachusetts and filed a complaint against the
MCAD and the two complaints which was later used
against me by the Plaintiff by amending its

13
complaint, stating, “it was retaliation against the
complainants”, even though I was protecting my civil
rights by two bogus and frivolous complaints.
I believe the MCAD was the originator of the
conspiracy since my replies to the complaints should
have led to a disqualification of the two
complainants unable to file under the Fair Housing
Act.
The basis for my conspiracy theory starts with
the Fair Housing Act. In order for a complainant to
be able to use the Fair Housing Act, the
complainants must be bonfide tenant which these
two complainants were not based on inadequate
income from their own statements starting with the
first call and thereafter.
A) The conspiracy started when the MCAD had a
summer intern take two complaints from Esteban
Hernandez and Aileen Hernandez and serve those
complaints on me without any investigative work
and without determining if the complainants were
bonfide tenants under the Fair Housing Act.
Thereafter, when their chief investigator,
Beth Tedeschi arrived back from vacation and a
work seminar as she stated during the trial, she
never took the time to qualify the tenants as bonfide
and continued with the frivolous complaints even
though I supplied two replies to the complaint
outlining my conversation with the complainants
where they stated their income was less than $1,000
a month or 100% of the rent and utility costs for that
apartment. It was the duty and responsibility of
Beth Tedeschi as an MCAD investigator to ensure
the complainants were bonfide and she didn’t, in

14
addition to knowing that even though the complaints
were not signed properly and in the second
complaint the complainant’s mother’s signature was
forged, she transferred the two complaints to HUD.
Based on these facts and evidence that was
submitted at trial, Beth Tedeschi was the first co­
conspirator in the case against me because she
simply did not do her job and continued with two
frivolous complaints against me. Beth Tedeschi then
had a co-worker posing as a neutral conciliator,
demanded $15,000 from me in disregard of the
proper conciliatory process under the Fair Housing
Act. Beth Tedeschi described under oath and during
the trial, the steps and conditions of a conciliatory
hearing and identifying my conciliation process as
being noncompliant. At the time, I felt that I was
being extorted because there was never a meeting
between the parties in order to try to resolve the
case, so as an out of state owner, I sought protection
in the Federal District Court of Springfield,
Massachusetts and filed a complaint against MCAD
and the two complainants in order to protect my
rights under the Constitution.
Once I started the lawsuit in the Federal District
Court against MCAD, the MCAD sent the two
frivolous complaints over to their sister agency,
HUD.
B) When HUD received the two complaints, they
were turned over to their investigator, Mark Butler
and at this time he became a knowing or unknowing
co-conspirator since he did not qualify the
complainants, Esteban Hernandez and Aileen
Hernandez as bonfide tenants under the Fair
Housing Act.
Mark Butler knew it was his

15
obligation to first qualify the complainants before
beginning his investigative work and if he did his
job, the complaints would have been withdrawn
since the complainants had insufficient income to
qualify as bonfide tenants under the Fair Housing
Act.
Mark Butler was bias and from day one believed I
was guilty as he so stated under oath and during the
trial. Based on his bias, Mark Butler did not provide
a complete and accurate final report and when the
report was completed without sufficient proof or
proper qualification of the complainants, Mark
Butler recommended to his supervisor, Daniel
Weaver, that I be prosecuted under the Fair Housing
Act.
Mark Butler knew these complaints were
frivolous, he knew the income was insufficient yet he
believed his bueruacratic power could prevail in a
case against me and that is why he qualifies as a co­
conspirator because he continued with the frivolous
case.
C) When Daniel Weaver received the final report
on or about March 15, 2016 and the recommendation
of Mark Butler, it was his obligation to certify the
complainants were bonfide tenants under the Fair
Housing Act before he recommended to the US
Attorney’s Office that I be prosecuted under the Fair
Housing Act. Daniel Weaver, in his deposition,
showed he knew nothing about the case or the final
report based on the numerous questions he was
asked by me and answered “I don’t know”, “I don’t
remember”, “I’m not sure”, etc. yet Daniel Weaver
had the audacity to act as a neutral conciliator in
demanding $30,000 from me to resolve the case and I
believe this qualifies him as a co-conspirator in

16
continuing this frivolous case and two complainants
knowing or should have known that the
complainants were not bonfide under the Fair
Housing Act. Daniel Weaver simply relied on the
bias recommendation of Mark Butler.
When I
replied “no” to his $30,000 extortion demand, he
then decided to recommend to the US Attorney’s
Office that I be prosecuted.
D) When the US Attorney’s Office received the
complaint, Gregory Dorchek was put in charge of the
case and we began to communicate regarding the
two complaints received by me from HUD. Gregory
Dorchek at this time became a co-conspirator
because his first obligation was to determine if the
two complainants were bonfide in order to use the
Fair Housing Act in protecting their rights against
discrimination. Gregory Dorchek had the paystubs
available to him to prove that they were not bonfide
tenants in order to use the Fair Housing Act since
their income was insufficient.
Gregory Dorchek
continued with the frivolous case and became a co­
conspirator when he did not withdraw this case
knowing the complainants were not bonfide, later
Gregory Dorchek sat through depositions, hearing
his witnesses lie under oath and then recant
especially the complainants yet Gregory Dorchek did
not withdraw the complaints when he heard that the
complainants income on the date of the last call, was
less than $1,000 a month based on the actual
paystubs for that period of time.
See Giles v. Maryland (US 1967)
Gregory Dorchek when confronted by a Court
Order by the presiding Judge, to prove that the

17
complainants were bonfide, submitted a, knowingly
false reply with perjurious affidavits of Mark Butler,
Esteban Hernandez, Aileen Hernandez all submitted
to the Court exaggerating the complainant’s income
from under $1,000 a month to $2,600 a month. This
was knowingly done to keep the case from being
dismissed by the presiding Judge knowing that the
complain ants were not bonfide tenants under the
Fair Housing Act.
See Spicer v. Roxbury 4th Circuit 1999
Brady
violation cross-prosecutor did not disclose witnesses’
prior inconsistent statements.
This qualifies my contention that Gregory
Dorchek was a co-conspirator and continued with his
conspiracy up until the end of the trial by suborning
witnesses to lie under oath, answering questions
that he knew were answered improperly since he sat
through the depositions and heard them recant the
same testimony and lies that he was asking during
the trial.
Gregory Dorchek and his co-council,
Jennifer Serafin prepped and suborned their
witnesses to lie under oath at the trial believing that
I, as a Pro Se would not be able to properly crossexamine the government witnesses and expose the
perjurious statements made by them. During the
trial when I cross-examined Esteban Hernandez, he
had testified previously that his income was $2,600 a
month.
When I presented his actual paystubs,
which were submitted into evidence, I had him read
them out loud to the Judge and jury, he had to
recant his previous testimony because it was a lie.
Gregory Dorchek before he put on Esteban
Hernandez as a witness, knew he was going to lie as
to his income and suborned him to lie. This was also

18
true for Aileen Hernandez, when she testified that
her husband received extra monies from his job in
complete contradiction to Esteban Hernandez’s
statements during his deposition attended by Mr.
Dorchek. Aileen Hernandez also lied about her
previous rental history and eviction proceedings with
the full knowledge of Gregory Dorchek who had this
information in his possession prior to the trial.
When I cross-examined Mark Butler and I forced
him to read out loud the paystubs of the
complainants, he had to state for the Jury and Judge
to hear that the complainants were not bonfide
tenants and could not use the Fair Housing Act.
Mark Butler knew this prior and lied as a Plaintiffs
witness since he had recanted his previous testimony
in his depositions and knew from day one that the
two complainants were not bonfide under the Fair
Housing Act but his bias towards me kept him from
withdrawing his two complaints, knowing they were
frivolous.
Perjury involves intentionally making a false
statement or misleading statement that is material
to the outcome of a trial. Gregory Dorchek and his
co-council, Jennifer Serafin were fully aware of the
perjurious answers of their witnesses yet allowed
their witnesses to lie under oath without disclosing
those lies to the judge and jury and in so doing
violated my due process rights and a fair trial and
once again qualifying them as co-conspirators.
See Spicer v. Roxbury 4th Circuit 1999
violation because prosecutor did not
witnesses prior inconsistent statement.

Brady
disclose

19
See Giles v. Maryland US 1967 - prosecutor used
perjury testimony against them violating due
process of law.
See 19 USC 1622 - whoever procures another to
commit any perjury is guilty of subordination of
perjury.
E) The presiding Judge of this case, knowingly or
unknowingly became a co-conspirator in this case
due to the following actions on the part of the
presiding judge. The presiding Judge Mastroanni
was the presiding judge in my first complaint
against the MCAD and showed bias towards me
because I acted in a Pro Se manner. In the second
case during the trial, and prior to the trial the
presiding Judge seemed to have a problem with my
Pro Se status and I believe violated my rights of due
process and a fair trial when he refused to allow me
to call Daniel Weaver as a witness in my defense so
that I could show the jury that he recommended
prosecution against me under the Fair Housing Act
without ever qualifying the complainants as bonfide
tenants, that he tried to extort $30,000 without
knowing any facts of the case all on the record and
transcripts of this case. The presiding judge refused
to allow me to call Ms. Berrios, a Section 8
coordinator as a witness in my defense and also
refused to allow me to put into evidence, two orders
of the Court of the former presiding Judge Stearns to
have available for the jury during deliberation, 1)
dismissing a former retaliation complaint on July 25,
2016 and 2) the Order of the Court dated October 12,
2016, requesting the Plaintiff to prove that the
complainants were bonfide under the Fair Housing
Act in order to proceed with the case. These Orders

20
resulted in the Plaintiffs amended complaint and
thereafter with the submittal of perjurious affidavits
and false and misleading replies by Gregory Dorchek
in order to deceive the Court by inflating the income
of the complainants and thereby allowing the case to
move forward.
The presiding Judge heard the testimony of Mark
Butler, when the HUD investigator stated on the
record and transcript, that the complainants were
not bonfide under the Fair Housing Act.
This
acknowledgement meant the case was frivolous from
day one, and when I requested at the end of the trial
that the case be dismissed, the presiding Judge
knowing there was no legal basis for this case to
move forward, refused to dismiss the case and again
after the jury verdict was recited, and when I asked
for a re-hearing and a dismissal of the jury verdict
award to the complainants and the Plaintiff. At this
time, hearing that testimony of Mark Butler, the
presiding judge should have dismissed this case.
Finally, when the presiding judge after hearing
the jury’s verdict that the complainants were not
bonfide refused the Defendant’s request to reverse
the jury award of money to the complainants and the
Plaintiff knowing that the case was frivolous once
the complainants were deemed non-bonfide tenants
under the Fair Housing Act. This is why I believe
the presiding judge became a co-conspirator in this
case.
Judicial misconduct occurs when a judge acts in a
way that is unethical abuse of his power and not
being impartial.

21
See 18 USC §1621 - a judge allowing perjury during
a trial can lead to miscarriage of justice
F) The jury became co-conspirators once they
determined on the jury verdict form that the
complainants were not bonfide under the Fair
Housing Act which should have ended their
deliberation yet they continued to award money to
the non-bonfide tenants, the complainants, Esteban
and Aileen Hernandez, in the amount of $8,500 and
to the Plaintiff, legal fees of $35,000 when the jury
verdict in question 1 should have ended the case and
deemed it a frivolous case and in Defendant’s favor
(Pet. App. la-6a). The Plaintiffs profited by their
unethical, unprofessional and illegal conduct by
knowingly lying to the Court by submission of
untruthful papers and perjurous affidavits of the
complainants and Mark Butler.
Finally, after I received the judgment against me
by the Court, I asked the Court to reconsider the
Judgment which was denied even after hearing the
testimony of Mark Butler stating the complainants
were not eligible to use the Fair Housing Act as a
protection against discrimination since they were not
bonfide tenants based on insufficient income (Pet.
App. 7a).

22
SUMMARY
I believe that the requirements of the Fair
Housing Act speak for themselves. The complainants
based on lack of income were never bonfide tenants
and could not use the protection of the Fair Housing
Act. I believe my accusations of a conspiracy seem
extreme but the fact that this frivolous lawsuit
continued for approximately 4 years when it was the
obligation of each and every agency to qualify the
complainants as being bonfide yet knowing they
were not and in the continuation of this frivolous
lawsuit against me simply believing that a Pro Se
would cave in and summit to their demands simply
not to go to trial before a judge and jury. I believe
the US Supreme Court in order to protect the due
process rights under the Constitution and to not
allow this atrocity to happen again needs to step in
with their supervisory powers and correct the
wrongs done against me by the Plaintiff and the
governmental agencies involved.

23
CONCLUSION
I am asking the US Supreme Court to reverse the
decision of the Court of Appeals and the lower
Court’s judgment and send this case back to be
re-tried so that justice may be done and my Pro Se
rights will be protected under the 14th Amendment
to the Constitution.

Dated: July 2, 2019

Respectfully yours,
/s/ John DeRaffele
JOHN DERAFFELE

